No. 20-

In the Supreme Court of the United States
HOLOGIC, INC. AND CYTYC SURGICAL PRODUCTS, LLC, CROSS-PETITIONERS,
v.
MINERVA SURGICAL, INC., CROSS-RESPONDENT.
CERTIFICATE OF SERVICE
I hereby certify that, in accordance with Supreme Court Rule 29.3 and this Court’s
Order of April 15, 2020, all parties required to be served have been served with copies
of the foregoing CROSS-PETITION FOR A WRIT OF CERTIORARI, via e-mail,
this 5th day of November 2020. All parties had previously consented to electronic
service consistent with this Court’s order of April 15, 2020. The following parties were
served:
Robert N. Hochman
Sidley Austin, LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-2936
rhochman@sidley.com
Counsel for Cross-Respondent
I declare under penalty of perjury the foregoing is true and correct. Executed on
November 5, 2020.

/s Matthew M. Wolf _
Matthew M. Wolf
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
601 Massachusetts Ave., NW
Washington, DC 20001
(202) 942-5000
matthew.wolf@arnoldporter.com
November 5, 2020

